Department of Homeland Security
   Ofﬁce of Inspector General

             Security Issues with U.S. Customs 

             and Border Protection’s Enterprise 

                  Wireless Infrastructure
 





OIG-11-118                                    September 2011
                                                          Office of Inspector General

                                                          U.S. Department of Homeland Security
                                                          Washington, DC 20528




                              September 28, 2011

MEMORANDUM FOR: 	             Charles Armstrong
                              Assistant Commissioner
                              Office of Information and Technology
                              U.S. Customs and Border Protection

FROM:                         Frank Deffer
                              Assistant Inspector General
                              Information Technology Audits

SUBJECT: 	                    Final Letter Report: Security Issues with U.S. Customs and
                              Border Protection’s Enterprise Wireless Infrastructure

Attached for your information is our final letter report, Security Issues with U.S. Customs
and Border Protection’s Enterprise Wireless Infrastructure. We incorporated the formal
comments from U.S. Customs and Border Protection in the report.

The report contains three recommendations aimed at improving U.S. Customs and Border
Protection’s overall effectiveness in securing its wireless infrastructure. Your office
concurred with all of the recommendations. Within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion date
for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. The report will
be posted on our website.

Should you have any questions, please call me, or your staff may contact
Richard Saunders, Director, Advanced Technology Division, at (202) 254-5440.

Attachment
Background
Because wireless networks and devices offer connectivity without the physical
restrictions associated with wired infrastructures, the use of wireless technology has
grown significantly. Wireless networks and devices can offer many benefits to
government agencies, such as expanded network accessibility that promotes increased
flexibility for the federal workforce. Further, remote accessibility may allow federal
personnel to perform critical functions and maintain government continuity of operations
in the event of an emergency situation or natural disaster. However, wireless networks
and devices also present significant security challenges, including cyber threats, weak
physical controls of wireless infrastructure and devices, and unauthorized or rogue
deployments of wireless access points.1

Wireless systems include local area networks, personal area networks, laptop computers,
cellular phones, and other devices, such as wireless headphones and other handheld
devices. The most common transmission standards used for wireless devices are the
Institute of Electrical and Electronics Engineers 802.11 standards and 802.15 Bluetooth®
technologies.

Owing to the large scale of U.S. Customs and Border Protection’s (CBP) responsibilities
at airports, seaports, rail inspection areas, and outbound lanes, implementing wireless
technologies at these locations would assist the officers, agents, and inspectors in
performing their job functions. CBP designed its Enterprise Wireless Infrastructure
(EWI) based on 802.11 technologies to accommodate connectivity at CBP sites to
promote wireless capabilities or where traditional wired networks may not be feasible.
The servers for managing EWI’s wireless communications are located at the National
Data Center in Springfield, Virginia.

CBP’s current wireless infrastructure evolved from the Department of the Treasury’s
legacy wireless program for the Treasury Enforcement Communications System (TECS).
The program was developed to provide personnel with wireless access to TECS at major
air, land, and sea ports of entry. In 2003, as technology improved, CBP initiated its EWI
program to improve the mobility of its workforce. CBP’s Office of Information and
Technology had taken steps to deploy a wireless infrastructure at selected locations
throughout the continental United States and the Commonwealth of the Northern Mariana
Islands. In 2008, CBP tested and deployed EWI as a production system at 51 sites.

Results of Review
CBP has made progress in improving EWI security controls. However, additional steps
are needed to further strengthen EWI security. Specifically, CBP needs to (1) remediate
its current plans of action and milestones (POA&Ms) in a timely manner, (2) enable and
monitor the wireless intrusion detection systems (WIDS) to protect its network, and
1
 A rogue access point is accessible to an organization’s employees and outsiders and is not managed as
part of the approved network. Most rogue access points are installed by employees and not managed by
system administrators.

                                                 Page 2
(3) perform regular vulnerability assessments to identify vulnerabilities and evaluate the
effectiveness of existing wireless security controls.

CBP Has Taken Steps To Secure EWI

CBP has taken the following steps to improve its wireless security posture:

         Published a policy and implementation guidance in 2009 to use in developing and
         implementing its wireless security program.2 This policy incorporates guidance
         from the National Institute of Standards and Technology (NIST), the National
         Security Agency, and the Department of Defense. In addition, the policy includes
         a wireless security checklist that provides security requirements for all wireless
         systems.

         Certified and accredited (C&A) EWI in July 2010, following the process outlined
         in NIST Special Publication (SP) 800-37.3 The EWI C&A process included all
         the required C&A documentation, such as a system security plan, risk assessment,
         system test and evaluation plan, security assessment report, contingency plan,
         contingency plan test results, and self-assessment.

         Performed an independent security test and evaluation (ST&E) that identified
         15 information security program risks, as part of its EWI C&A process. CBP is
         tracking these information technology (IT) security weaknesses in the Department
         of Homeland Security (DHS) enterprise management tool.4

         Established adequate wireless security configurations to protect its wireless
         networks and devices against commonly known security vulnerabilities.

         For example, CBP (1) uses WPA2 Advanced Encryption Standard between
         laptops and wireless access points to protect the confidentiality of data;
         (2) disables the wireless Service Set Identifier (SSID) from being publicly
         broadcasted to potential attackers;5 (3) installs proprietary software on its laptops
         to connect to the wireless network; and (4) requires personnel to use two-factor

2
  CBP Information Systems Security Policies and Procedures Handbook, HB 1400-05D, Attachment Q1,
dated July 27, 2009.
3
  Certification is a comprehensive assessment of the management, operational, and technical security
controls in an information system, made in support of security accreditation, to determine the extent to
which the controls are implemented correctly, operating as intended, and producing the desired outcome
with respect to meeting the security requirements for the system. Accreditation is the official management
decision given by a senior agency official to authorize operation of an information system and to explicitly
accept the risk to agency operations (including mission, functions, image, or reputation), agency assets, or
individuals, based on the implementation of an agreed-upon set of security controls.
4
  DHS uses an enterprise management tool, Trusted Agent FISMA, to collect and track data related to all
POA&Ms, including self-assessments, and C&A data.
5
  The SSID is a configurable identification that allows clients to communicate to the appropriate base
station. With proper configuration, only clients that are configured with the same SSID can communicate
with base stations having the same SSID. From a security point of view, the SSID acts as a simple single
shared password between base stations and clients.

                                                   Page 3
        authentication to access the wireless network. We verified the effectiveness of
        these controls through observations or by using the AirMagnet Wi-Fi Analyzer
        PRO software to conduct testing at selected CBP sites.6 Our scans did not
        identify any high or medium risk vulnerabilities that pose significant threats on
        authorized CBP wireless networks and devices. Additionally, we did not identify
        any unauthorized or rogue wireless devices.

        Incorporated wireless security awareness into its annual security awareness and
        rules of behavior training. In fiscal year 2011, 59,025 of 60,000 (98%) CBP
        personnel received IT security awareness training. For CBP personnel with
        significant security responsibilities, 1,223 of 1,231 (99%) have received specialized
        training as recommended in NIST SP 800-50 and 800-16. The CBP Information
        Systems Security Policies and Procedures Handbook, HB 1400-05D, Attachment
        Q1, indicates that any appropriate wireless security awareness training should be
        included in CBP’s annual training.

Despite these efforts, CBP faces challenges in fully implementing a secure wireless
infrastructure. Specifically, CBP needs to (1) manage and remediate the deficiencies
identified in the EWI POA&Ms to ensure that corrective actions are taken; (2) enable
wireless intrusion detection functionality to monitor network activity; and (3) perform
regular vulnerability assessments to ensure that wireless networks and devices are
operating securely.

CBP Needs To Address EWI POA&M Deficiencies

The EWI Information Systems Security Officer (ISSO) is responsible for ensuring the
implementation and maintenance of security controls in accordance with DHS policies
and the EWI System Security Plan (SSP). In July 2010, as part of EWI’s C&A process,
the ISSO coordinated with CBP’s Security Technology and Policy Branch to perform an
independent ST&E. The assessment identified 15 EWI wireless security vulnerabilities
and risks that compromise the integrity of the system. The ISSO entered these weaknesses
into DHS’ enterprise management tool to assess, prioritize, and monitor the progress of
corrective actions and remediation efforts.

Although 15 security weaknesses were initially identified, 8 deficiencies were either
remediated by the ISSO or granted exceptions by the DHS Chief Information Security
Officer (CISO).7 CBP requested an exception because it was unable to bring EWI’s
control weaknesses into compliance with DHS policy. For example, EWI used a Cisco®

6
  The AirMagnet Wi-Fi Analyzer PRO software automatically detects and alerts users to wireless
intrusions, penetration attempts, and hacking strategies, including rogue devices, devices sending
unencrypted data, and other potentially damaging security configurations.
7
  DHS components may request waivers to or exceptions from any portion of DHS 4300A, for up to 6
months, any time they are unable to fully comply with policy requirements. Exceptions are generally
limited to systems that are unable to comply because of an impact to mission, excessive costs, and
commercial-off-the-shelf products that cannot be configured to support control requirements. Requests are
made through the component’s ISSO for the system to the component’s respective CISO, and then to the
DHS CISO.

                                                 Page 4
commercial-off-the-shelf product to build its wireless architecture, but this product does
not use Secure File Transfer Protocol and Secure Socket Layer Protocol as required by
DHS configuration guidelines.8 In December 2010, CBP network architects submitted a
request to Cisco® to explore future code releases to comply with DHS policy; however,
these weaknesses have not been addressed.

As of June 2011, CBP had not remediated the seven remaining POA&Ms. For example:

         Wireless activities have not been transitioned from the development team to the
         DHS Security Operations Center (SOC).9
         Field technology officers have not received training on how to handle and respond
         to EWI system events.
         An EWI alternate site has not been established for backup redundancy.
         Public Key Infrastructure is not being used with EWI because this technology is
         not available at an organization level.10

Additionally, the ISSO has not updated the current status of the outstanding seven
weaknesses in DHS’ enterprise management tool.

According to DHS 4300A Sensitive Systems Handbook, Attachment H, a POA&M
provides a high-level view of what needs to be done to correct identified weaknesses.
POA&M data should be monitored on a continuous basis and updated as events occur.
DHS requires that all information in the POA&M be updated at least monthly and be
accurate on the first day of each month for Department tracking and reporting purposes.

Without an effective remediation program, identified vulnerabilities may not be resolved
in a timely manner, thereby allowing opportunities for unauthorized individuals to exploit
these weaknesses and gain access to sensitive information and systems.

CBP Needs To Enable Wireless Intrusion Detection Functionality

CBP has not enabled the WIDS to protect EWI’s network from potential malicious
activities or threats.11 According to the CBP Information Systems Security Policies and
Procedures Handbook, HB 1400-05D, Attachment Q1, a WIDS should incorporate

8
  Secure File Transfer and Secure Socket Layer Protocols are used for protecting information during the
transmission between a client and the server.
9
  The DHS SOC coordinates Department-level incident response and reporting, assists DHS’ components
with incident response, and identifies and resolves computer security irregularities that affect the ability of
DHS to conduct its mission. The SOC is responsible for centralized management and oversight of the CBP
and the DHS cyber intelligence program, digital media analysis, and penetration testing and vulnerability
assessment teams.
10
   Public Key Infrastructure is used as a support service to the Personal Identity Verification system, which
provides the cryptographic keys needed to perform digital signature based identity verification, and to
protect communications and storage of sensitive verification system data within the identity cards and the
verification system.
11
   WIDS can inspect the network traffic for policy violations, vulnerability exploitations, anomalous
activity, and rogue wireless access points.

                                                    Page 5
remote sensors that monitor the airwaves and report findings to a WIDS management
appliance. Further, NIST SP 800-53A recommends that organizations employ automated
tools to support real-time analysis of events. These systems scan the airwaves to detect
malicious activities such as the installation of unauthorized devices, access point outages,
wireless client device hijacking, denial of service attacks, unauthorized ad-hoc or peer-to­
peer networks, and other wireless network vulnerabilities.

Without enabling wireless intrusion detection functionality, CBP will not be able to
monitor wireless security activity, detect potential attacks, notify the appropriate officials
of an incident, and take corrective actions.

CBP Needs To Establish Processes for Performing Regular EWI Vulnerability
Assessments

CBP is not performing wireless vulnerability and security scans of EWI to ensure that
authorized wireless networks and devices are adequately secured and to detect
unauthorized or rogue wireless networks and devices. Scanning tools can identify
outdated software, validate compliance with organizational security policy, and generate
alerts and reports about identified vulnerabilities. According to the Director of the DHS
SOC, CBP does not have the necessary tools or resources to perform on-site wireless
security assessments. In addition, according to the CBP Vulnerability Assessment Team
liaison, the technical engineers are only capable of scanning wireless access points
connected to the wired network.

According to the DHS 4300A Sensitive Systems Handbook, CBP is responsible for
performing periodic scans to identify vulnerabilities and take corrective actions. Due to
the inherent risks of wireless technologies, the CBP Information Systems Security
Policies and Procedures Handbook, HB 1400-05D, requires frequent security testing and
evaluation of controls to be conducted for deployed wireless technologies.

Without an established process to perform regular vulnerability assessments, CBP cannot
evaluate wireless security risks impacting its operations and timely implement the
necessary corrective actions. Without regular vulnerability assessments, inappropriate or
malicious activity by an unauthorized or authorized user may not be detected.

Recommendations
We recommend that the CBP Assistant Commissioner, Office of Information and
Technology take the following actions to improve EWI’s security:

   1.	 Remediate POA&Ms in a timely manner to minimize potential security risks.

   2.	 Enable the WIDS incorporated into EWI’s hardware devices to protect its 

       wireless network from potential malicious activities or threats.





                                            Page 6
   3.	 Establish a process to perform regular vulnerability assessments to evaluate the
       effectiveness of EWI’s wireless security and to detect unauthorized wireless
       networks and devices.

Management Comments and OIG Analysis
We obtained written comments on a draft report from the CBP Assistant Commissioner,
Office of Internal Affairs. We have included a copy of the comments, in its entirety, in
appendix B. The CBP Assistant Commissioner concurred with all three recommendations.

Recommendation 1

For recommendation 1, CBP states that it will review and update the POA&Ms in order
to update and close those that have been remediated. Those that remain open will reflect
what remains to be done in order to minimize their potential security risks.

CBP identified two open POA&Ms to be addressed. The first POA&M is the need to
duplicate the data center network infrastructure at the DHS Data Center 1 (Stennis) that
supports the EWI. This would facilitate network redundancy in the event of failure of the
primary network. The second POA&M provides adequate staff to support the EWI.

A Resource Requirement Request will be submitted as part of the first quarter fiscal year
(FY) 2012 submission. Once funding is obtained, CBP will be able to obtain the
necessary resources to remediate these open POA&Ms. The completion date for this
recommendation is January 1, 2013.

OIG Analysis

We agree that the actions being taken satisfy the intent of this recommendation. This
recommendation will remain open until CBP provides documentation to support that the
planned corrective actions are completed.

Recommendation 2

CBP concurs with recommendation 2 based on its understanding that its intent is to fully
utilize the WIDS by putting the device on the EWI network and actively monitoring the
data captured by the WIDS. CBP has WIDS devices at each of the 51 CBP sites where
EWI is deployed and is logging data. However, no one is currently monitoring and
reviewing the data for anomalous activity.

CBP has created a Resource Requirement Request to be submitted as part of the first
quarter FY 2012 submission to obtain the necessary funding to address the monitoring of
the WIDS data. Once funding is obtained, CBP will be able to assign the necessary
resources to accomplish that task.




                                          Page 7
In addition, CBP is presently engaged in transferring ownership of the EWI from the
Enterprise Networks and Technology Support Division to the Network Security Office.
This process includes documenting the EWI Wireless Control System so that the
Network Security Office can properly manage the EWI system in terms of operations and
maintenance and generation of audit reports. The proposed completion date for this
recommendation is January 1, 2013.

OIG Analysis

We agree that the actions being taken satisfy the intent of this recommendation. This
recommendation will remain open until CBP provides documentation to support that the
planned corrective actions are completed.

Recommendation 3

CBP concurs with OIG recommendation 3. CBP has set up vulnerability scans for all
EWI Wireless Controllers, and the Wireless Information Systems Security Officer is
currently conducting scans. A schedule will be formalized by December 2011 to ensure
that the scans are scheduled and conducted on a regular and recurring basis. The
proposed completion date for this recommendation is December 31, 2011.

OIG Analysis

We agree that the actions being taken satisfy the intent of this recommendation. This
recommendation will remain open until CBP provides documentation to support that the
planned corrective actions are completed.




                                        Page 8
Appendix A
Purpose, Scope, and Methodology

                   The objectives of our review were to determine whether CBP has
                   implemented the required wireless security controls on authorized
                   wireless systems and devices and to assess the effectiveness of
                   CBP’s ability to detect and prevent unauthorized networks and
                   devices.

                   We reviewed DHS policies and procedures, as well as prior audit
                   reports. We reviewed CBP wireless topography and design
                   documentation, security authorization packages, and other
                   certification and accreditation deliverables. We interviewed
                   selected personnel, management officials, and subject matter
                   experts that were relevant to this audit. Also, we distributed a
                   questionnaire to the 51 CBP sites that had initially deployed
                   802.11 wireless technologies to determine where wireless security
                   assessments could be performed and to identify wireless issues or
                   concerns.

                   In addition to distributing the questionnaire, we conducted
                   fieldwork at CBP headquarters in Washington, DC; National Data
                   Center in Springfield, Virginia; Washington Dulles International
                   Airport in Sterling, Virginia; Dundalk Seaport in Baltimore,
                   Maryland; DHL Facility at the Cincinnati-Northern Kentucky
                   International Airport in Erlanger, Kentucky; CBP Port of Entry in
                   Douglas, Arizona; and the Unisys Government Test Lane Facility
                   in Fredericksburg, Virginia. Fieldwork was performed through
                   conference calls and data calls at the Saipan International Airport
                   and the Rota International Airport in the Commonwealth of the
                   Northern Mariana Islands.

                   We conducted our review between November 2010 and May 2011.
                   This was a limited scope review; therefore, our work was not
                   performed in accordance with generally accepted government
                   auditing standards. Major OIG contributors to the evaluation are
                   identified in appendix C.

                   We appreciate the efforts by CBP management and staff to provide
                   the information and access necessary to accomplish this review.




                                       Page 9
Appendix B
Managements Comments to the Draft Letter Report




                                                                               1300 Pennsylva.nla Avenue NW
                                                                               Washington. DC 20129



                                                                               u.s. Customs and
                                                                               Border Protection
                                                                              August 31,2011




           MEMORANDUM FOR FRANK DEFFER
                          ASSISTANT fNSPECTOR GENERAL FOR IT AUDITS
                          DEPARTMENT OF HOMELAND SECURITY

           FROM:                    Assistant Commissioner ~ ~
                                    Office of Internal Affairs        -
                                    U.S. Customs and Border Pro ction

           SUBJECT:                 Response to the Office of Inspector General's Draft Report
                                    Entitled, "Security Issues with U.S. Customs and Border
                                    Protection's Enterprise Wireless Infrastructure"

           Thank you for providing us with a copy of your draft report entitled "Security Issues with
           U.S. Customs and Border Protection's Enterprise Wireless Infrastructure," and the
           opportunity to comment on the issues in this report.

           The report contains three recommendations directed to U.S. Customs and Border
           Protection (CBP). A summary of CBP actions and corrective plans to address the
           recommendations is provided below:

           Recommendation #1: Remediate open Plan of Action and Milestones in a timely manner
           to minimize potential security risks.

           CBP Response: Concur. CDP has reviewed and re-baselined the master Plan of Action
           and Milestones (PO AM) list and schedule with the Information System Security Manager
           (lSSM) in order to remediate what can be closed, and open new POAMs to reflect what
           still needs to be done in order to minimize potential security risks.

           CBP has identified that there are two parts to the risks to be addressed. The first is the
           duplication of the data center infrastructure supportjng the Enterprise Wireless
           Infrastructure (EWI) within the DHS Data Center 1 (Stennis) facility to support
           redundancy in the design. The second is providing adequate staff to support the EWI. A
           Resource Requirement Request (RRR) will be submitted as part of the 1st quarter Fiscal
           Year 2012 submission. Once funding is obtained, CBP will be able to obtain the
           necessary resources to remediate the open POAMs.

           Completion Date: January 1,2013




                                                  Page 10

Appendix B
Managements Comments to the Draft Letter Report



                                                        2


           Recommendation #2: Enable the wireless intrusion detection system, which is
           incorporated into the Enterprise Wireless Infrastructure's hardware devices, to protect its
           wireless network from potential malicious activities or threats.

           CBP Response: Concur. CBP concurs with this recommendation based on the
           understanding that the intent of the recommendation is to encompass both enabling and
           monitoring of Wireless Intrusion Detection system (WIDS). CBP has enabled the wIDS
           hut is not currently monitoring the system. CBP has created a Resource Requirements
           Request (RRR) to be submitted as part of the lSI quarter Fiscal Year 2012 submission to
           obtain the necessary funding needed to address the monitoring of the WIDS data. Once
           funding is obtained, CRP will be able to assign the necessary resources to monitor the
           system,

           CBP is presently engaged in transferring ownership of the EW! from Enterprise Networks
           and Technology Support Division (ENTS) to the Network Security Office (NSO) and
           Windows Server Farm (WSF). l'he process entails the documentation of the tWI
           Wireless Control System (WeS) Windows application information so that the NSO/WSF
           can properly manage the EWI WCS ill terms of monilOring, configuration, administration
           and generation of audit reports,

           Currently, \Vms is functioning at aUS1 CBP sites where EWI is deployed and logging is
           occurring. Attached please find the following documentation demonstrating that wms is
           enabled and logs are being generated:

           \Vms Signatures.doc - This document is made up of screen shots from the controller that
           displays that WIDS is active. Please note that Cisco refers to WIDS under the naming of
           WPS. Also, WPS/W1DS is enabled as a default configuration and was enabled out of the
           box upon initial implementation of these devices.
           WSf'vfNWGOI configuration,txt This document is a copy of the configw'ation showing
           that WIDS is enabled.

           Security Alarm Trending Summary 20110701 103802 374.pdf- This document is from
           the Jog files over the past 12 weeks. The system is reporting the necessary data and the
           logging servers are capturing this data,

           Completion Date: January 1,2013




                                                    Page 11

Appendix B
Managements Comments to the Draft Letter Report



                                                         3


           Recommendation #3: Establish a process to perform regular vulnerability assessments to
           evaluate the effectiveness of the Enterprise Wireless Infrastructure's \-vircless security and
           to detect unauthorized wireless networks and devices.

           eRP Response: Concur. Vulnerability scans have been set up for all EWI Wireless
           Controllers. Vulnerability Assessment Team (VAT) scans are currently being conducted
           by the Wireless Information Systems Security Officer (1880). A schedule will be
           formalized by December 2011 to ensure the scans are conducted on a regular and
           recurring basis.

           Completion Date: December 31, 2011

           With regard to the sensitivity of the draft report, CBP did not identify any sensitive
           information that would require a "For Official Use Only" designation or warrant
           protection under the Freedom of InforrnlHion AcL

           If you have any questions regarding this response, please contact me or have a member of
           your staff contact Ms. Ashley Boone, CBP Audit Liaison, at (202) 344-2539.




                                                     Page 12

Appendix C
Major Contributors to this Report

                    Richard Saunders, Director
                    Steve Matthews, IT Audit Manager
                    Philip Greene, IT Audit Team Leader
                    Jamie Horvath, IT Specialist
                    Patrick Nadon, Report Consultant
                    Frederick Shappee, Referencer




                                      Page 13
Appendix D
Report Distribution
                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer

                      Customs and Border Protection

                      CBP Commissioner
                      CBP Chief Information Officer
                      CBP Chief Information Security Officer
                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committee, as
                      appropriate




                                         Page 14
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
